NO. 20-142

In the
Supreme Court of the United States
MICHAEL SKIDMORE
TRUSTEE FOR THE RANDY CRAIG WOLFE TRUST,

Petitioner,
v.
LED ZEPPELIN, ET AL.,

Respondents.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
MOTION FOR LEAVE TO FILE
AND BRIEF OF AMICUS CURIAE
CALIFORNIA SOCIETY OF ENTERTAINMENT
LAWYERS IN SUPPORT OF PETITIONER

STEVEN T. LOWE

COUNSEL OF RECORD

LOWE & ASSOCIATES P.C.
8383 WILSHIRE BLVD.
SUITE 1038
BEVERLY HILLS, CA 90211
(310) 477-5811
STEVEN@LOWELAW.COM
COUNSEL FOR AMICUS CURIAE

SEPTEMBER 10, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

Motion–1
MOTION FOR LEAVE TO FILE BRIEF
Pursuant to Supreme Court Rule 37.2(b), the
California Society of Entertainment Lawyers (“CSEL”)
respectfully moves the Court for leave to file the accompanying brief as amicus curiae. The consent of counsel
for Petitioner has been obtained, but the consent of
counsel for Respondents was withheld by letter dated
July 27, 2020. In pertinent part, Respondents declined
to consent, stating:
You request defendants’ consent to your filing
of an amicus brief that you are unable to
provide, in support of a petition for a writ of
certiorari that has not been filed, and the
views of your organization of nineteen plaintiffs lawyers would already be provided to the
Court by plaintiff’s own counsel.
Supreme Court Rule 37.2(a) requires that the consent of
counsel be obtained at least 10 days prior to submission
of an amicus curiae brief. In respect for this rule, CSEL
requested submission well in advance as to provide
notice of this organization’s interest in this case prior
to drafting any brief. While it is true that no petition
for a writ of certiorari was filed at the time CSEL
requested consent, this should not prejudice CSEL.
Petitioner’s brief was timely filed on August 6, 2020.

Motion–2
Lastly, CSEL continues to grow and expand its
membership. Recently, CSEL opened its membership
to creative professionals in order to better provide a
voice to artists. Although it is true that a majority of
CSEL’s current active members are plaintiff’s lawyers,
CSEL’s interest in this case extends beyond simply a
“win” for Petitioner.
As more fully set forth in the amicus brief filed
concurrently herewith, CSEL’s fear is that Skidmore,
left alone, will create even greater confusion both
within the Ninth Circuit and amongst the Circuits
regarding the substantial similarity analysis in music
copyright infringement cases, further prejudicing creators’ rights. CSEL therefore has an interest in having
this matter heard by this Court to provide some modicum of predictability to creators who seek to enforce
their copyrights via litigation.
Further, the en banc decision not only challenges
binding Supreme Court precedent (see, e.g., Pet. for
Writ of Certiorari at 5), but appears to diminish the
copyright protections guaranteed under the Constitution for the purpose of incentivizing innovative and
creative works. Such public policy concerns, included
in the accompanying amicus curiae brief, provides an
important perspective as to why the Court should grant
this motion.

Motion–3
Respectfully submitted,
STEVEN T. LOWE

COUNSEL OF RECORD

LOWE & ASSOCIATES P.C.
8383 WILSHIRE BLVD.
SUITE 1038
BEVERLY HILLS, CA 90211
(310) 477-5811
STEVEN@LOWELAW.COM

COUNSEL FOR AMICUS CURIAE
CALIFORNIA SOCIETY OF
ENTERTAINMENT LAWYERS

SEPTEMBER 10, 2020

